CERTIFICATE OF COMPLIANCE
No. 19-1010
ACTAVIS HOLDCO U.S., INC., ET AL.,
Petitioners,
v.
CONNECTICUT, ET AL., Respondents.
As required by Supreme Court Rule 33. 1(h), I
certify that the Respondents' Brief in Opposition to
Petition for Writ of Certiorari contains 8,990 words,
excluding the parts of the Brief that are exempted
by Supreme Court Rule 33. 1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on May 20, 2020.

Clare Elmendorf *nda
Solicitor General of C nnecticut
Office of the Attorney General
165 Capitol Avenue
Hartford, CT 06106
Work cell: (959) 666-0230
Clare.Kindall@ct.gov

